Commonwealth v. Knight, 241 A.3d 620 (2020)

241 A.3d 620
Supreme Court of Pennsylvania.
COMMONWEALTH of Pennsylvania, Appellee
v.
Melvin KNIGHT, Appellant
No. 775 CAP
|
Submitted: March 17, 2020
|
Decided: November 18, 2020
Synopsis
Background: Defendant pleaded guilty in the Court of
Common Pleas, Westmoreland County, Criminal Division,
No. CP-65-CR-0000851-2010, Rita D. Hathaway, President
Judge, to first-degree murder and other offenses and,
following a penalty hearing, was sentenced to death.
Defendant appealed. The Supreme Court, 638 Pa. 407, 156
A.3d 239, vacated death sentence and remanded for a new
penalty hearing. On remand the Court of Common Pleas
sentenced defendant to death. Defendant appealed.

Holdings: The Supreme Court, No. 775 CAP, Eastern
District, 2020, Todd, J., held that:
defendant failed to establish that he was entitled to an Atkins
jury instruction;
the trial court's denial of defendant's pretrial motion seeking
to employ the Colorado method of voir dire in capital cases
was not an abuse of discretion;
the trial court's decision to allow four color photographs of
murder victim to be in the jury room during deliberations was
not an abuse of discretion; and
sentence of death for first-degree murder conviction was not
the result of passion, prejudice, or other arbitrary factors.
Affirmed.
Procedural Posture(s): Appellate Review; Sentencing or
Penalty Phase Motion or Objection; Trial or Guilt Phase
Motion or Objection; Jury Selection Challenge or Motion.

*623 Appeal from the Judgment of Sentence entered on
November 15, 2018 (Post-Sentence motions denied February
28, 2019) in the Court of Common Pleas, Westmoreland
County, Criminal Division, at No. CP-65-CR-0000851-2010.
Rita Donovan Hathaway, President Judge
Attorneys and Law Firms
Timothy Paul Dawson, and James H. Robinson Jr., Esqs., for
Appellant.
Leo Joseph Ciaramitaro, John W. Peck II, Katie Lynne
Ranker, Esqs., Westmoreland County District Attorney's
Office, Ronald Eisenberg, Esq. Pennsylvania Attorney
General's Office, for Appellee.
SAYLOR,
C.J.,
BAER,
TODD,
DOUGHERTY, WECHT, MUNDY, JJ.

DONOHUE,

OPINION
JUSTICE TODD
Melvin Knight appeals the judgment of sentence of death
imposed by the Westmoreland *624 County Court of
Common Pleas following his second penalty trial for his role
in the 2010 torture and murder of Jennifer Daugherty (“the
Victim”), a 30–year-old intellectually disabled woman. For
the reasons that follow, we affirm Appellant's judgment of
sentence.

I. Background
This Court set forth the disturbing facts of this case in
our opinion disposing of Appellant's appeal from his first
judgment of sentence:
The evidence revealed that, on February 8, 2010, appellant
and his pregnant girlfriend [Amber] Meidinger were at
the Greensburg, Pennsylvania bus station when appellant
noticed codefendant Ricky Smyrnes. Smyrnes was there
with the victim and the other codefendants, Angela
Marinucci, Robert Masters, and Peggy Miller. The victim,
who had the intellectual capacity of a fourteen-yearold, had taken a bus to Greensburg to attend a doctor's
appointment the next day and intended to stay at Smyrnes's
apartment. Meidinger recognized the victim from a facility
they both attended that provided services to clients with

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

APPENDIX A 1

Commonwealth v. Knight, 241 A.3d 620 (2020)

mental disorders and disabilities. In conversation with
Meidinger, the victim said she was going to marry
Smyrnes; Meidinger noticed tension between the victim
and Marinucci after Marinucci overheard the remark.
Marinucci accompanied appellant and Meidinger to their
hotel and confided she was in a relationship with a married
man; Meidinger eventually learned Smyrnes was the man.
At the hotel, Meidinger overheard Marinucci tell Smyrnes
during a phone conversation, “[Y]ou better not be with
that bitch[,]” referring to the victim. N.T. Penalty Phase,
8/22/12, at 535. Meidinger and appellant later joined
Smyrnes at his apartment, where Masters and Miller were
also present. Smyrnes invited appellant and Meidinger to
stay the night. The victim arrived and later attempted to
be intimate with Smyrnes, who rebuffed her and became
angry with her.
The next day, the victim decided not to go to her doctor to
get her medication, which angered Smyrnes and appellant.
While the victim showered, Smyrnes phoned Marinucci
and told her about the victim's sexual advances the prior
evening. Marinucci responded, “nobody is having sex with
my man.” Id. at 552. Going forward, the conspirators
engaged in a continuing course of abusing the victim.
The conspirators first bullied the victim by taking things
from her purse and pouring mouthwash on her purse and
clothing. They then hit the victim on the head repeatedly
with empty soda bottles, until appellant grabbed her,
knocked her into a wall, and began choking her until the
victim fell to the floor crying.
Later, Marinucci arrived, still distressed about the victim's
advances toward Smyrnes. Marinucci and Meidinger
accosted the victim in the bathroom. Marinucci pushed
her into a metal towel rack three times and struck her in
the chest and head. After the victim denied any interest
in Smyrnes, Meidinger shoved her into the towel rack
three times, causing her to strike her head. Appellant then
dragged the victim into the living room, where he and
Smyrnes dumped spices and oatmeal on her head after
Marinucci poured water on her. Smyrnes then directed the
victim to shower.
After the victim showered, appellant brought her out of
the bathroom, forced her to remove her clothes, and threw
them out of the window. With Smyrnes's help, appellant
cut off the victim's hair, *625 made her clean it, then took
her into the living room and stuffed a sock into her mouth.
Thereafter, appellant raped her.

After Marinucci decided to spend the night, appellant,
Meidinger, and Smyrnes accompanied her to her house to
retrieve her prescription medication. Smyrnes instructed
Masters and Miller to remain with the victim and not let
her leave. As the foursome was returning to the apartment,
Miller called and related that the victim was trying to
depart. Upon arrival, the group beat the victim, gave her
some of Marinucci's medication, and left her in the living
room while they went to bed.
The following morning, a dispute over soda led Marinucci
to push the victim to the floor and hit her. In defense, the
victim kneed Marinucci in the stomach, causing Marinucci
to report to Smyrnes that the victim had killed her baby
(in fact, Marinucci was not pregnant). Smyrnes confronted
the victim, demanding, “[I]f you want to kill my kid, why
should I let you live[?]” Id. at 596. Marinucci insisted
that Smyrnes choose between her and the victim, leading
Smyrnes to call a “family meeting” and ask the others'
opinions regarding what kind of mother the victim would
be. At this point, the victim appeared to be “out of it,”
having been beaten, raped, and drugged. Id. at 600.
Following a second “family meeting,” appellant put the
victim in the bathroom, and Meidinger hit her in the head
with a towel rack to force her to drink Marinucci's urine
from a cup. The victim gagged into the toilet. Meidinger
repeated this action with a second concoction containing
feces and urine, striking the victim in the head with the
towel rack until she obeyed, again gagging. Meidinger and
appellant made a third foul mixture containing powdered
detergent, water, and some of Meidinger's prescription
medication, which Meidinger forced upon the victim, again
hitting her in the head with the towel rack until she
consumed it and vomited.
The torture continued unabated. Appellant took the victim
into the living room, where he and Smyrnes bound her feet
with Christmas lights. When the lights did not function,
Smyrnes, appellant, and Meidinger removed the bulbs and
tied the victim's ankles and wrists with the empty strings,
adding Christmas garland around her ankles. During this
time, Miller's nail polish was applied to the victim's face.
Smyrnes called a third “family meeting” and inquired
whether they should kill the victim. After the “family”
voted to kill, Smyrnes forced the victim to write a suicide
note and told her the conspirators were going to make her
death look like a suicide to avoid being held responsible.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

Commonwealth v. Knight, 241 A.3d 620 (2020)

Appellant took a knife from Smyrnes, who told him, “You
know what to do.” Id. at 636. Appellant and Meidinger took
the victim to the bathroom, forced her to her knees, turned
off the light, and shut the door. Appellant asked Meidinger
if she was ready, and she replied she was. After appellant
put something in the victim's mouth to keep her silent, he
asked her if she was ready to die, then stabbed her in the
chest multiple times, and stabbed and sliced her neck. As
the victim lay gasping, appellant exited the bathroom and
announced she was not dead yet. Marinucci said to kill her,
that she wanted her “out of here.” Id. at 617. Smyrnes took
the knife and cut the victim's wrists, after which he and
appellant choked the victim with the Christmas lights.
After the victim perished, Smyrnes called another “family
meeting” to decide what to do with her body. Ultimately,
Smyrnes and appellant left the apartment *626 with the
victim's body in a plastic bag inside a garbage can. Upon
returning, they told the others they had left the can under a
truck. The conspirators then went to bed.
The victim's body was discovered later that morning by
a man who found the garbage can underneath his work
truck in a middle school parking lot. He contacted police,
who launched an investigation, and the victim's body was
identified. Dr. Cyril Wecht, the forensic pathologist who
performed an autopsy on the body, received the body
while it was still in the garbage can—placed head first,
partially covered with plastic bags, with Christmas lights
wrapped around the neck and wrists, and a decorative
material binding the ankles. The body had suffered multiple
incised wounds, abrasions, and contusions, and several
prescription drugs were found in the victim's system. Dr.
Wecht concluded the cause of death was a combination of
all of the injuries, but was primarily due to stab wounds
of the chest, which penetrated the left lung and went into
the heart, producing a substantial hemorrhage. Dr. Wecht
opined these injuries were inflicted shortly before death,
with the intent to cause pain and suffering: the victim would
have remained conscious after the initial infliction of the
wounds, bled for a couple of minutes, lost consciousness,
and finally died within four to six minutes.
Commonwealth v. Knight, 638 Pa. 407, 156 A.3d 239, 241-43
(2016) (footnotes omitted).
Appellant pleaded guilty to first-degree murder, seconddegree murder, conspiracy to commit murder, kidnapping,
and conspiracy to commit kidnapping. 1 At Appellant's

first penalty phase trial, the Commonwealth pursued two
aggravating circumstances: the killing was committed while
in the perpetration of a felony, 42 Pa.C.S. § 9711(d)(6);
and the killing was committed by means of torture, id. §
9711(d)(8). Appellant asserted four mitigating circumstances,
including no significant history of prior criminal convictions,
42 Pa.C.S. § 9711(e)(1); his age at the time of the
crime, id. § 9711(e)(4) 2 ; extreme duress, id. § 9711(e)(5);
and the “catch-all” mitigator, id. § 9711(e)(8). The jury
found that the Commonwealth established both aggravating
circumstances, and that Appellant established the catch-all
mitigating circumstance; it concluded, however, that the
aggravators outweighed the mitigating circumstances, and
thus recommended that Appellant be sentenced to death. See
42 Pa.C.S. § 9711(c)(1)(iv).
On direct appeal, Appellant raised fourteen issues for
this Court's review, including a challenge to the jury's
failure to find as a mitigating circumstance Appellant's
lack of a significant history of prior criminal convictions.
In addressing this claim, this Court observed that it
was undisputed that Appellant had no prior felony or
misdemeanor convictions, a fact to which the prosecutor
conceded during closing argument. Knight, 156 A.3d at 245.
Relying on Commonwealth v. Rizzuto, 566 Pa. 40, 777 A.2d
1069 (2001), abrogated on other grounds by Commonwealth
v. Freeman, 573 Pa. 532, 827 A.2d 385 (2003), wherein this
Court ordered a new penalty hearing because the jury did not
find the (e)(1) mitigator despite the parties’ stipulation to its
existence, we concluded that the jury herein was obliged to
find the (e)(1) mitigator, and should have been directed to do
so by the trial court. Accordingly, on November *627 22,
2016, 3 we granted Appellant a new penalty trial on this basis.
In May 2017, prior to his second penalty trial, Appellant filed
a pre-trial motion asserting, inter alia, that the death penalty
in Pennsylvania is unconstitutional. Appellant also sought
to preclude at trial the admission of autopsy photographs
of the Victim, and evidence related to the Victim's mental
health deficits. In June 2017, Appellant filed notice of his
intent to assert an Atkins 4 defense based on his own alleged
intellectual disability. In another pretrial motion filed in
October 2018, Appellant sought to utilize the Colorado voir
dire method of jury selection, discussed infra, which the trial
court denied. The trial court also denied Appellant's proposed
jury instruction regarding his Atkins defense.
Appellant's second penalty trial began on November 5, 2018
and concluded on November 15, 2018. The jury found

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

Commonwealth v. Knight, 241 A.3d 620 (2020)

the (d)(6) aggravator (the killing was committed while in
the perpetration of a felony), citing both the felonies of
kidnapping and aggravated assault; and the (d)(8) aggravator
(the killing was committed by means of torture). 42 Pa.C.S.
§ 9711(d)(6), (8). The jury found as mitigating circumstances
Appellant's lack of a significant history of prior criminal
convictions, § 9711(e)(1); the fact that Appellant was under
the influence of extreme mental or emotional disturbance,
§ 9711(e)(2); and that Appellant acted under extreme
duress or under the substantial dominion of another person,
§ 9711(e)(5). The jury determined that the aggravating
circumstances outweighed the mitigating circumstances, and
thus recommended that Appellant be sentenced to death. In
accordance with 42 Pa.C.S. § 9711(c)(1)(iv), which requires
that a trial court impose a sentence of death where the jury
unanimously finds one or more aggravating circumstances
which outweigh any mitigating circumstances, the trial court
imposed a sentence of death. Following the denial of his postsentence motions, Appellant filed a notice of appeal, and the
matter is once again before this Court.

II. Analysis
A. Challenge to Pennsylvania's Death Penalty Statute
In his first claim, Appellant contends that “[t]he Death Penalty
in Pennsylvania constitutes cruel punishment and should be
abolished.” Appellant's Brief at 9. Characterizing himself as
a “20-year old mentally impaired African American male at
the time of the murder,” Appellant argues that his sentence of
death violates his constitutional rights under the Fifth, Sixth,
Eighth, and Fourteenth Amendments to the United States
Constitution, and under Sections 6, 9, and 13 of Article I of
the Pennsylvania Constitution. Appellant's Brief at 9.
Although Appellant asserts that he raised this argument in
his pretrial motion of May 19, 2017, Appellant neglects
to set forth in his brief to this Court the text of any of
the constitutional provisions upon which he now relies.
Appellant also fails to offer any argument as to why his capital
sentence violates those constitutional provisions. Instead,
Appellant quotes at length from the brief of the Philadelphia
County District Attorney's Office filed in response to the
petitions for extraordinary relief under this Court's King's
Bench authority (“King's Bench petitions”) in an unrelated
case by Jermont Cox and Kevin *628 Marinelli, which
challenged the administration of capital punishment in
Pennsylvania following the 2018 release of a report by

the Joint State Government Commission (“Report”). See
Brief of Philadelphia District Attorney's Office in Cox v.
Commonwealth, 102 & 103 EM 2018, 218 A.3d 384 (Pa. Sept.
26, 2019) (order). 5
In response, the Commonwealth observes that Pennsylvania's
death penalty statute was held constitutional under both
the United States and Pennsylvania Constitutions in
Commonwealth v. Zettlemoyer, 500 Pa. 16, 454 A.2d 937
(1982). The Commonwealth acknowledges that this Court
has, in the past, heard challenges to the constitutionality
of Section 9711 as applied to a specific defendant, see
Commonwealth v. Means, 565 Pa. 309, 773 A.2d 143
(2001), but notes that, in Means, the appellant challenged
the process of imposing the penalty, not the penalty itself.
Finally, the Commonwealth argues that, because Appellant
fails to develop his argument that there is not a compelling
penological justification for the death penalty, and instead
simply reproduces the arguments from the King's Bench
petitions in Cox, Appellant has waived this issue.
Preliminarily, we note that, on September 26, 2019, this
Court issued an order denying the applications in both Cox,
declining to exercise our King's Bench jurisdiction. See Cox,
supra. Accordingly, Appellant's reliance on the arguments of
the parties in those cases is not helpful to his position.
Moreover, in Commonwealth v. Briggs, 608 Pa. 430, 12
A.3d 291 (2011), this Court specifically condemned the
practice of incorporating by reference in an appellate brief a
brief authored by another attorney. In Briggs, the appellant
argued that Pennsylvania's death penalty statute violated
his rights under Sections 6, 9, and 13 of Article I of
the Pennsylvania Constitution, and the Sixth, Eighth, and
Fourteenth Amendments to the United States Constitution.
However, instead of providing a coherent argument for each
of his claims, with proper citations to relevant case law,
the appellant attempted to incorporate by reference a brief
authored by another attorney, which the appellant appended
to his motion in the trial court and attached as an appendix to
the brief he filed with this Court.
We explained that such “ ‘incorporation by reference’ is an
unacceptable manner of appellate advocacy for the proper
presentation of a claim for relief to our Court.” Id. at 342. We
further stated:
Our rules of appellate procedure specifically require a
party to set forth in his or her brief, in relation to the

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

Commonwealth v. Knight, 241 A.3d 620 (2020)

points of his argument or arguments, “discussion and
citation of authorities as are deemed pertinent,” as well
as citations to statutes and opinions of appellate courts
and “the principle for which they are cited.” Pa.R.A.P.
2119(a), (b). Therefore our appellate rules do not allow
incorporation by reference of arguments contained in briefs
filed with other tribunals, or briefs attached as appendices,
as a substitute for the proper presentation of arguments in
the body of the appellate brief. Were we to countenance
such incorporation by reference as an acceptable manner
for a litigant to present an argument to an appellate
court of this Commonwealth, this would enable wholesale
circumvention of our appellate rules which set forth
the fundamental requirements every appellate brief must
meet. See, e.g., Pa.R.A.P. 2135(a)(1) (establishing length
of principal brief at no greater than 70 pages); *629
Commonwealth v. (James) Lambert, 568 Pa. 346, 356 n.
4, 797 A.2d 232, 237 n. 4 (2001) (Opinion Announcing
Judgment of the Court) (refusing to consider claims
not argued in the brief but incorporated by reference
from motions made at trial and observing that “[t]o
permit appellant to incorporate by reference his previous
motions would effectively allow him to more than double
the original briefing limit.”). The briefing requirements
scrupulously delineated in our appellate rules are not
mere trifling matters of stylistic preference; rather, they
represent a studied determination by our Court and its
rules committee of the most efficacious manner by which
appellate review may be conducted so that a litigant's
right to judicial review as guaranteed by Article V, Section
9 of our Commonwealth's Constitution may be properly
exercised. Thus, we reiterate that compliance with these
rules by appellate advocates who have any business before
our Court is mandatory. Consequently, since Appellant has
failed to develop or present a proper argument with respect
to these constitutional claims, we find them waived in this
direct appeal.
Id. at 343 (footnotes omitted); see also Commonwealth v.
Perez, 625 Pa. 601, 93 A.3d 829 (2014) (appellant's failure to
cite case law or provide argument in support of his challenge
to the death penalty as cruel and unusual punishment, and
unconstitutional, rendered his claim waived for purpose of
appeal); Commonwealth v. Walter, 600 Pa. 392, 966 A.2d 560
(2009) (appellant waived her constitutional claim regarding
the death penalty by failing to cite case law or provide any
argument).
As Appellant's brief is devoid of original argument regarding
the constitutionality of Pennsylvania's death penalty statute,

and instead consists of a near verbatim reproduction of
the argument of the Philadelphia County District Attorney's
Office set forth in its response to the King's Bench petitions
in Cox and Marinelli, which, as noted above, this Court
denied, we hold that Appellant has waived his challenge to
the constitutionality of Pennsylvania's death penalty statute.

B. Atkins Instruction
Appellant next argues that the trial court erred in denying
his request for a jury instruction pursuant to Pennsylvania
Suggested Standard Criminal Jury Instruction 15.2502F.2, 6
also referred to as an Atkins instruction. An Atkins instruction
advises the jury that a defendant who is determined to be
intellectually disabled is not eligible for the death penalty. In
Atkins, the United States Supreme Court held that the Eighth
Amendment to the United States Constitution prohibits
the imposition of the death penalty upon individuals with
intellectual disabilities. 536 U.S. at 321, 122 S.Ct. 2017.
However, the Atkins Court “left the determination of how
to apply the ban on the execution of mentally retarded
defendants convicted of capital crimes to the individual
states.” Commonwealth v. Miller, 585 Pa. 144, 888 A.2d 624,
629 (2005).
We considered in Miller the definition of intellectual
disability used by the American Association of Mental
Retardation (“AAMR”), now the American Association on
Intellectual and Developmental Difficulties (“AAIDD”), and
the American Psychiatric Association (“APA”) standard
set forth in the Diagnostic and Statistical Manual of
Mental Disorders (4th ed. 1992) (“DSM–IV”). The AAMR
defines intellectual disability as a “disability characterized by
significant limitations both in intellectual functioning and in
adaptive behavior as expressed in the conceptual, social, and
*630 practical adaptive skills.” Miller, 888 A.2d at 629–30
(quoting Mental Retardation: Definition, Classification, and
Systems of Supports 1 (10th ed. 2002)). The APA's definition,
as set forth in the DSM–IV, defines “mental retardation”
as “significantly subaverage intellectual functioning (an IQ
of approximately 70 or below) with onset before age 18
years and concurrent deficits or impairments in adaptive
functioning.” Miller, 888 A.2d at 630 (quoting DSM–IV at
37).
We noted in Miller that the above definitions share
three concepts: limited intellectual functioning, significant

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

Commonwealth v. Knight, 241 A.3d 620 (2020)

adaptive limitations, and onset prior to age 18. Regarding the
concept of limited intellectual functioning, we explained:

Limited or subaverage intellectual
capability is best represented by IQ
scores, which are approximately two
standard deviations (or 30 points)
below the mean (100). The concept
should also take into consideration
the standard error of measurement
(hereinafter “SEM”) for the specific
assessment instruments used. The
SEM has been estimated to be three
to five points for well-standardized
measures of general intellectual
functioning. Thus, for example, a
subaverage intellectual capability is
commonly ascribed to those who test
below 65–75 on the Wechsler scales.

inter alia, interpersonal skills, social responsibility, and the
ability to follow rules; and practical skills include, inter alia,
personal care, travel and transportation, meal preparation, and
money management. Id. at 630 n. 8.
This Court did not discuss at length in Miller the third concept
— age of onset — stating, “[w]e see no need to explore the
concept of age of onset further, since this requirement is self
explanatory and both the AAMR and the DSM–IV require
that the age of onset be before age 18.” Id. at 630 n.7.
In sum, we stated:

What is clear from the above is
that [the AAMR and the DSM–
IV] definitions are very similar
and diagnosis under either system
of classification takes into account
like considerations. Therefore, we
hold that a PCRA petitioner may
establish his or her mental retardation
under either classification system
and consistent with this holding,
assuming proper qualification, an
expert presented by either party may
testify as to mental retardation *631
under either classification system.
Moreover, consistent with both of
these classification systems, we do not
adopt a cutoff IQ score for determining
mental retardation in Pennsylvania,
since it is the interaction between
limited intellectual functioning and
deficiencies in adaptive skills that
establish mental retardation.

Id. at 630 (citations omitted).
Recognizing that, pursuant to both the AAMR and DSM–IV,
a low IQ score is not, in and of itself, sufficient to support
a classification of intellectually disabled, we considered the
factors relevant to the second prong – the existence of
limitations in adaptive behavior:
Adaptive behavior is the collection of conceptual, social,
and practical skills that have been learned by people in
order to function in their everyday lives, and limitations
on adaptive behavior are reflected by difficulties adjusting
to ordinary demands made in daily life. The AAMR
recommends that such limitations should be established
through the use of standardized measures. “On these
standardized measures, significant limitations in adaptive
behavior are operationally defined as performance that is
at least two standard deviations below the mean of either
(a) one of the following three types of adaptive behavior:
conceptual, social, or practical, or (b) an overall score on
a standardized measure of conceptual, social, and practical
skills.”
Id. at 630–31 (citations and footnote omitted). Under the
AAMR, conceptual skills include, inter alia, language,
reading, and writing abilities, and the understanding of
money, time, and number concepts; social skills include,

Id. at 631.
In Commonwealth v. Sanchez, 614 Pa. 1, 36 A.3d 24 (2001),
this Court held that a “colorable Atkins issue” should be
submitted to the jury for a penalty phase decision. Id. at 62.
However, “an Atkins claim is not properly for the factfinder
unless there is competent evidence to support the claim, under
the standard announced in Miller.” Id. at 62 n.19.
In the case sub judice, the Commonwealth objected to
Appellant's request for an Atkins instruction on the basis that

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

Commonwealth v. Knight, 241 A.3d 620 (2020)

the defense failed to meet the three-prong test to establish
intellectual disability, as set forth by this Court in Miller
and Sanchez. Specifically, the Commonwealth argued that
Appellant failed to present evidence of a test demonstrating
that Appellant's IQ was in the range of 65 to 75 prior to age 18.
In its February 28, 2019 Opinion and Order denying
Appellant's post-sentence motions (“Trial Court Opinion”),
the trial court acknowledged that “there was evidence
introduced that [Appellant] had limitations in his adaptive
functioning that arose prior to the age of 18.” Trial Court
Opinion, 2/28/19, at 41. However, it noted that “only one
IQ score of 75 was introduced into evidence, which was
not relied upon by either party as a reliable result.” Id. As
recognized by Appellant, this is because his IQ score of 75
was not documented prior to age 18, as required under Miller.
Appellant's Brief at 16.
Further, the trial court observed that Appellant's own experts
conceded that his IQ score did not meet the criteria for
a determination that he was intellectually disabled under
Atkins. The trial court recounted, for example, that defense
expert Dr. Christine Nezu, a clinical psychologist, testified
that, while Appellant's adaptive functioning was below
average and in the impaired range, he did not meet the
requirements for a finding of intellectual disability under
Atkins, notwithstanding the fact that Appellant scored a 75 on
a test performed while Appellant was incarcerated in 2012,
at age 23. Trial Court Opinion, 2/28/19, at 41. The trial
court further observed that defense expert Dr. Joette James,
a clinical neuropsychologist, testified that she performed an
IQ test on Appellant in 2018, which resulted in an overall
score of 77, the same score indicated by Appellant's first IQ
test performed when he was almost eight years old. Id. at 42.
Accordingly, the trial court concluded that, because Appellant
failed to demonstrate that his IQ fell within the impaired range
required to establish intellectual disability under Miller and
Sanchez, an Atkins instruction would have been inappropriate.
Id.
In his brief, Appellant “acknowledges that on crossexamination of both psychological experts, the prosecution
elicited testimony from both Dr. James ... and Dr. Nezu ...
that the Appellant did not meet the IQ requirement of
Sanchez ... and thus could not technically be considered
‘intellectually disabled’ pursuant to current Pennsylvania
case law.” Appellant's Brief at 12. However, he quotes at
length the expert testimony which, in his view, establishes
his adaptive deficits. Moreover, Appellant contends that the

trial court should have given an Atkins instruction based on
his belief that this Court should revisit the IQ requirement set
forth in Miller and Sanchez in light of *632 the subsequent
decisions by the United States Supreme Court in Hall v.
Florida, 572 U.S. 701, 134 S.Ct. 1986, 188 L.Ed.2d 1007
(2014), and Moore v. Texas, ––– U.S. ––––, 137 S.Ct. 1039,
197 L.Ed.2d 416 (2017).
In Hall, the high Court, in a 5-4 decision, struck down
Florida legislation which provided that defendants who had
an IQ score above 70 had no right to relief under Atkins
and were precluded from presenting any further evidence of
intellectual disability. 7 The Court determined that Florida's
strict cutoff of 70, which did not account for the standard
error of measurement (“SEM”) of five points on either side
of the score, violated the Eighth Amendment's prohibition
on cruel and unusual punishment, and it held, in accordance
with Atkins, that defendants who have an IQ score that falls
within a range that accounts for the SEM, which in Hall's
case was between 66 and 76 (Hall had documented IQ scores
ranging from 71 to 80) − must be allowed to present additional
evidence of intellectual disability regarding difficulties in
adaptive functioning.
In Moore, the defendant had an adjusted IQ score of
74, which, taking into consideration the SEM, fell within
the range of 69 to 79. The high Court determined that,
because the lower range of the defendant's adjusted IQ fell
at or below 70, the lower court was required to consider
his adaptive functioning in determining whether he was
intellectually disabled for purposes of Atkins. In so holding,
the Court reiterated that, “in line with Hall, we require
that courts continue the inquiry and consider other evidence
of intellectual disability where an individual's IQ score,
adjusted for the test's standard error, falls within the clinically
established range for intellectual-functioning deficits.” 137 S.
Ct. at 1050.
According to Appellant, the high Court's decisions in Hall
and Moore warrant this Court's reconsideration of the
requirements of Sanchez and Miller. We disagree. Notably,
this Court has already declined to adopt a strict IQ score cutoff
for determining intellectual disability, recognizing that “it is
the interaction between limited intellectual functioning and
deficiencies in adaptive skills” that establishes intellectual
disability, Miller, 888 A.2d at 631, and that an IQ score
falling within the range of 65 to 75 warrants consideration
of intellectual disability. Thus, Pennsylvania's approach to

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

7

Commonwealth v. Knight, 241 A.3d 620 (2020)

determining intellectual disability is consistent with Hall and
Moore.
As noted above, the trial court explained that it rejected
Appellant's request for an Atkins instruction because
Appellant failed to introduce any evidence of a documented
IQ score of 75 or below prior to age 18. Appellant himself
conceded this fact, and, as the trial court found, his own
experts likewise conceded that he did not meet the criteria
for a determination that he was intellectually disabled under
Atkins. Accordingly, because Appellant failed to offer any
evidence of an IQ score, documented prior to age 18, within
the range established by Miller and Sanchez, the trial court
was not required to provide an Atkins charge to the jury.

1. The following aggravating circumstances are submitted
to the jury and must be proved by the Commonwealth
beyond a reasonable doubt:
a. The defendant committed a killing while in the
perpetration of a felony (kidnapping).
b. The defendant committed a killing while in the
perpetration of a felony (rape).
c. The defendant committed a killing while in the
perpetration of a felony (aggravated assault).
d. The offense was committed by means of torture.
First Degree Murder Sentencing Verdict Slip at 1. (R.R. 265).

*633 C. Jury's Determination
of Aggravating Circumstances
Appellant next contends that he is entitled to a new trial
because “[t]he jury erroneously found three aggravating
circumstances, when only two were sought by the
prosecution.” Appellant's Brief at 20. Appellant further
argues that the jury improperly “used one aggravator, a
killing committed during the course of a felony, two times,
in balancing aggravators vs. mitigators,” resulting in an
unconstitutional weighing of the aggravating and mitigating
circumstances. Id. at 21.
The Commonwealth acknowledges that it gave notice that
it would pursue two statutory aggravators − that the killing
was committed during the perpetration of a felony or felonies,
42 Pa.C.S. § 9711(d)(6), and that the offense was committed
by means of torture, id. § 9711(d)(8). Commonwealth's Brief
at 15. Further, in its instructions to the jury, the trial court
explained: “These are the two aggravating circumstances
alleged by the Commonwealth. First, that the killing was
committed during the commission of a felony, specifically,
either kidnapping and/or rape and/or aggravated assault, and
second, that the killing was committed by means of torture.”
N.T. 11/15/18, at 1174.
However, with respect to aggravating circumstances, the
jury verdict slip provided, under “General Instructions,” as
follows:
B.
AGGRAVATING
AND
MITIGATING
CIRCUMSTANCES PRESENTED TO THE JURY

Additionally, on a section of the jury verdict slip titled
“SENTENCING VERDICT AND FINDINGS,” under a preprinted line which read, “The aggravating circumstance(s)
unanimously found (is) (are):” the jury hand-wrote the
following:

(1) The defendant committed a
killing while in the perpetration
of a felony (kidnapping). (2) The
defendant committed a killing while
in the perpetration of a felony
(aggravated assault) (3) The offense
was committed by means of torture.

Id. at 2.
Further, when the trial court requested the jury foreperson to
read aloud the aggravating circumstances that the jury found
unanimously, the jury foreperson stated:
The aggravating circumstances unanimously are.
1. The Defendant committed a killing while in the
perpetration of a felony kidnapping.
2. The Defendant committed a killing while in the
perpetration of a felony aggravated assault.
3. The offense was committed by means of torture.
N.T. 11/15/18, at 1200-01.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

8

Commonwealth v. Knight, 241 A.3d 620 (2020)

Appellant suggests that the jury foreperson's reference to two
separate felonies − kidnapping and aggravated assault − in
addition to the torture aggravator, indicates *634 that the
jury improperly found two Section 9711(d)(6) aggravators,
even though the prosecutor sought only one, and/or that the
jury improperly considered the (d)(6) aggravator twice when
balancing the aggravating and mitigating circumstances.
We conclude that Appellant has waived this issue for two
reasons. First, Appellant did not raise the issue in his
Statement of Matters Complained of on Appeal filed pursuant
to Rule 1925(b) of the Pennsylvania Rules of Appellate
Procedure, and, second, Appellant failed to lodge an objection
to the jury verdict form with the trial court. As noted
above, the verdict slip specifically set forth the aggravating
circumstances the Commonwealth submitted to the jury,
including whether the killing was committed during the
course of felony kidnapping, felony rape, felony aggravated
assault, and by means of torture. After the trial court charged
the jury and provided its instructions regarding the verdict
slip, the court asked defense counsel if he had anything to add,
and defense counsel did not raise an objection. See N.T. Trial,
11/15/18, at 1188.
As we have explained repeatedly, in order to preserve a claim
for appellate review, an appellant must comply whenever
the trial court orders him to file a Statement of Matters
Complained of on Appeal pursuant to Pa.R.A.P. 1925, and
any issue not raised in a 1925(b) statement will be deemed
waived. Commonwealth v. Hill, 609 Pa. 410, 16 A.3d 484,
494 (2011). Further, Rule 647(C) of the Pennsylvania Rules
of Criminal Procedure provides: “No portions of the charge
nor omissions therefrom may be assigned as error, unless
specific objections are made thereto before the jury retires
to deliberate.” Pa.R.Crim.P. 647(C). As Appellant did not
challenge the trial court's jury instructions or the verdict
slip before the jury retired to deliberate, he has waived his
challenge for this reason as well. See Commonwealth v.
Montalvo, 598 Pa. 263, 956 A.2d 926, 935 (2008) (appellant's
challenge to the submission of the (d)(6) aggravator to the jury
was waived because he did not raise an objection thereto).
Appellant maintains that the “apparent error by the jury was
not discovered by the defense until a review of the trial
transcript [was] provided to the undersigned in preparation for
this brief.” Appellant's Brief at 21. However, Appellant and
his trial counsel were present in court at the time the trial court
instructed the jury, and when the jury verdict was returned.

Thus, we reject Appellant's purported explanation as a basis
to avoid a finding of waiver.

D. Prohibition on Reading Expert
Report During Closing Argument
Appellant next contends, in an argument comprising less
than one-half page, that the trial court abused its discretion
and committed an error of law when it refused to allow
defense counsel, in his closing argument to the jury, to
“read the opinions of Dr. Nezu from her expert report,”
which had been admitted into evidence, and instead limited
counsel to “summarizing said opinions.” Appellant's Brief at
22. Appellant asserts that there is “no rule of evidence or
procedure that prohibits the reading of portions of an expert
report ... during closing arguments.” Id. He further suggests
that the jury's purported request during its deliberations to
see Dr. Nezu's report demonstrates that the jury “obviously
needed clarification as to her expert opinions on intellectual
disability and adaptive functioning.” Id. 8
*635 A review of the trial transcript reveals the following
exchange during the defendant's closing argument:
Defense counsel: The Defendant also introduced the
testimony of Christine Nezu. Unfortunately I have to read
you some more of her testimony, but she is a professor.
She's not a hired gun. ... She's the pure expert in this case,
a clinical psychologist. These are psychological issues.
What did she tell you in regard to mitigators? I'm reading
from page 28 of her report. Please bear with me with
regard to the criteria.
Prosecutor: Judge, I'm going to object to the report. He
can summarize.
Court: Slow down a little bit.
Defense counsel: I knew that when I started. I'm just going
to summarize her report.
Prosecutor: Judge, I object to the report. He can
summarize her testimony.
Court: Okay.
Defense counsel: Her testimony --

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

9

Commonwealth v. Knight, 241 A.3d 620 (2020)

Court: First of all, Mr. Dawson, the jury will not be getting
the expert's report, but you may summarize her testimony
rather than her report. The testimony came from her report.
Defense counsel: Thank you, Your Honor.
To summarize her testimony which came from the
report, Dr. Nezu addressed the mitigators. She told you in
her opinion that they were related to the mental deficits
that are evident in Melvin Knight during February 2010.
Dr. Bruce Wright would have you believe that these
mental health issues just went away, were suspended,
just weren't evident in February 2020. Use your common
sense. That didn't happen. Melvin Knight has proven to
you by his expert testimony, by a psychological clinician
mitigators two, three, four and five.
N.T. Trial, 11/15/18, at 1142-44.
The trial court, in addressing Appellant's claim, observed that
Appellant did not explain how the court's requirement that
he summarize the expert's testimony instead of reading the
report verbatim prejudiced him, nor did Appellant indicate
what information he was unable to communicate to the
jury. Trial Court Opinion at 34. The court further noted
that Appellant “was not barred from describing Dr. Nezu's
findings, or discussing the ways that Dr. Nezu testified that
[Appellant's] mental deficiencies related to certain mitigating
circumstances. Moreover, after the Commonwealth objected,
defense counsel plainly stated that his intention was only to
summarize the report.” Id.

See Commonwealth v. Padilla, 622 Pa. 449, 80 A.3d 1238,
1255 n.16 (2013) (undeveloped claim that is not explained
factually nor supported by citations to law is unreviewable
and waived); Briggs, 12 A.3d at 326 n.34 (undeveloped claim
waived).

E. Allen Instruction
Appellant's next claim, as set forth in his Statement of the
Questions Involved, is that the trial court abused its discretion
“in not providing an Allen instruction to the jury” when, after
four hours of deliberation, which included approximately one
hour during which Appellant's confession was replayed for
the jury, it reported that it was deadlocked. Appellant's Brief
at 3. An Allen 9 instruction, which has also been referred
to as a “dynamite charge,” is designed to “blast loose a
deadlocked jury.” Commonwealth v. Greer, 597 Pa. 373, 951
A.2d 346, 348 n.2 (2008). In Pennsylvania, these types of
instructions are referred to as Spencer 10 instructions, and we
have described them as “instructions to a deadlocked jury to
continue to deliberate, with an open mind to reconsideration
of views, without giving up firmly held convictions.” Greer,
951 A.2d at 348.
Preliminarily, it appears that Appellant misapprehends the
nature of an Allen charge. Indeed, the trial court, upon
receiving a note from the jury, instructed the jury as follows:
The Court: [Y]ou're indicating to me that you're unable at
this time to reach a unanimous verdict.

Upon review, we find that Appellant has waived this claim
for two reasons. First, Appellant failed to lodge an objection
with the trial court with respect to its ruling that he could
summarize Dr. Nezu's testimony, but not read verbatim from
her report, and, indeed, as noted by the court below, counsel
specifically stated that he only intended to summarize Dr.
Nezu's report. See Trial Court Opinion, 2/28/19, at 34; N.T.
Trial, 11/15/18, at 1143 (Defense counsel: “I knew that when
I started. I'm just going to summarize her report.”). Issues not
raised in the lower court are waived and cannot be raised for
the first time on appeal. Pa.R.A.P. 302(a); Commonwealth v.
Smith, 635 Pa. 38, 131 A.3d 467, 474 (2015) (same).

Members of the jury, you went out at approximately 1:10
p.m., however you did come back in and listen to testimony,
which lasted about an hour, so although you've been
deliberating for about three hours I'm just wondering if
perhaps a little more time would help you? You've had the
case since 1:10. Obviously, you're having some difficulty
resolving the issues raised in the case. On the one hand, that
difficulty is an indication of the sincerity and objectivity
with which you have approached your duties. On the other
hand, it may be the result of confusion in your minds
about the instruction I gave you on the law and about its
application to the facts of this case.

*636 Moreover, Appellant fails to explain what evidence he
was prevented from conveying to the jury as a result of the
trial court's limitation; thus, he has failed to properly develop
his argument, and his claim is waived on this basis as well.

Mr. Wallace, does the jury require any additional or
clarification instructions on the law as it applies to this
case?
Jury Foreperson: Nobody has indicated that, Your Honor.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

10

Commonwealth v. Knight, 241 A.3d 620 (2020)

The Court: Okay. You realize, of course, that any verdict
you return must be a unanimous verdict. That you have
a duty to consult with one another and deliberate with a
view to reaching an agreement, if it can be done without
violence to your individual judgment. Each juror must
decide the case for him or herself, but only after an
impartial consideration of the evidence with his fellow
jurors. A juror should not hesitate to reexamine his or
her own views and to change his or her opinion if he
or she thinks it erroneous. No juror should surrender an
honest conviction to the weight or the effect of the evidence
because of the opinion of fellow jurors or for the mere
purpose of returning a verdict.
And again, ladies and gentlemen, I know that you have
been working hard on *637 this. I'm going to request
that you try for at least little longer. It's important to the
Defendant, to the county, to the attorneys, to everyone
involved. And again, if it can be done without doing any
harm to your honest convictions. Sometimes people can
reexamine their views and see it from a different point.
Keeping these instructions in mind, I'm going to send you
back to the deliberation room and I'm going to ask you to
give some further consideration to the evidence and to the
charge of the court to see if you can arrive at a verdict. If the
court can be of any assistance to you in the effort, I would
certainly be happy to oblige. I appreciate if you would put
[in] some more effort.
N.T. Trial, 11/15/18, at 1196-97. Thus, it appears that
Appellant's true complaint is not that the trial court failed to
issue an Allen charge, but, rather, that it erred in doing so.
Regardless, we find Appellant's claim is waived for several
reasons. First, although Appellant included this claim in
his Statement of the Questions Involved, and makes a onesentence reference thereto in his Summary of Argument,
there is no separate section for this claim in the Argument
portion of his brief. As the Commonwealth points out, the
Rules of Appellate Procedure require an appellant to divide an
argument section of a brief into as many parts as there are to
be argued, with each part including a discussion and citation
of authorities for the issue raised. Pa.R.A.P. 2119(a). When an
appellant fails to present an argument in support of an issue,
the issue is waived. Id.
Nevertheless, we note that Appellant's Brief contains a twoparagraph discussion titled “Questions and Notes during

deliberations” immediately following the conclusion of
his argument regarding the reading of Dr. Nezu's expert
report. Appellant's Brief at 22. In the middle of the first
paragraph, Appellant asserts that, “[a]fter some four plus
hours of deliberation (including the replaying of Defendant's
confession) Defendant requested and was denied that a
question be posed to the foreperson whether they were
hopelessly deadlocked. This might have resulted in a
deadlocked jury and a life sentence.” Id. (citation omitted and
emphasis added).
Although Appellant maintains, both in the excerpt of his brief
quoted above and in his Summary of Argument, that defense
counsel asked the trial court to inquire whether the jury was
hopelessly deadlocked, and that the trial court denied his
request, this Court has reviewed the transcript, and it reveals
no such request by defense counsel. Thus, Appellant's claim
is waived because he failed to raise it before the trial court.
Pa.R.A.P. 302(a) (issues not raised in the lower court are
waived and cannot be raised for the first time on appeal);
Smith, 131 A.3d at 474 (same).

F. Voir Dire
Appellant next argues that the trial court's denial of his pretrial
motion seeking to employ the Colorado method of voir dire in
capital cases constituted an abuse of discretion that warrants
a new trial. According to Appellant,

[t]he Colorado Method of capital voir
dire is a structured approach to capital
jury selection that is being widely used
in state and federal jurisdictions across
the United States. Colorado Method
capital voir dire follows several simple
principles: (1) jurors are selected based
on their life and death views only; (2)
pro-life (jurors who will only vote for
life) and pro-death jurors (jurors who
will only vote for a death sentence) are
removed utilizing cause challenges,
and attempts are made by both parties
to *638 retain potential death-giving
and life-giving jurors; (3) pro-death
and pro-life jurors are questioned
about their ability to respect the
decisions of the other jurors; and (4)

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

11

Commonwealth v. Knight, 241 A.3d 620 (2020)

preemptory challenges are prioritized
based on the prospective jurors’ views
on punishment. The Colorado Method
of capital voir dire works to create a
nonjudgmental respectful atmosphere
during jury selection that facilitates
juror candor and allows defense
counsel to then learn the prospective
jurors’ views about punishment for a
person guilty of capital murder and
eligible for imposition of a death
sentence.

Pennsylvania law does not require that a defendant be
permitted to utilize the Colorado Method of voir dire. Id.
It is beyond cavil that the Sixth and Fourteenth Amendments
guarantee a defendant the right to, inter alia, an impartial jury,
and this right extends to both the guilt and sentencing phases
of trial. Morgan v. Illinois, 504 U.S. 719, 727-28, 112 S.Ct.
2222, 119 L.Ed.2d 492 (1992). In a capital proceeding, “the
proper standard for determining when a prospective juror may
be excluded for cause because of his or her views on capital
punishment ... is whether the juror's views would ‘prevent or
substantially impair the performance of his duties as a juror
in accordance with his instructions and his oath.’ ” Id. at 728,
112 S.Ct. 2222 (citations omitted). The high Court explained:

Appellant's Brief at 24.
In a pre-trial motion, Appellant sought to pose to the jury
18 specific questions, which he asserted were consistent with
the Colorado Method of voir dire, in order to “determine
their ability to meaningfully consider and evaluate mitigating
evidence.” Id. Notably, Appellant does not set forth those
questions in his brief to this Court, but simply claims that
he “sought Court approval to ask questions of individual
jurors” for this purpose, and “should have been able to cite
the mitigators he sought in this remanded penalty trial and
inquire whether any prospective juror would consider and
give meaningful effect to them.” Id. at 24-25. He argues that
the trial court's denial of his request to utilize the Colorado
Method of voir dire denied him a “life qualified” 11 jury and
a fair penalty trial. Id. at 25.
In response, the Commonwealth first opines that it is unclear
whether Appellant's pre-trial motion “was a request that the
trial court replace entirely any existing voir dire system
with the Colorado Method, or whether the motion was a
request that the court's voir dire questions include some
variation of each [of] the questions enumerated in the
motion.” Commonwealth's Brief at 22. In any event, the
Commonwealth observes that “the trial court ruled on each
of the Appellant's proposed questions individually rather than
ruling on the entire motion to employ a particular voir dire
method.” Id.
In addressing Appellant's issue in its opinion denying
Appellant's post-sentence motions, the trial court observed
that Appellant “does not challenge the denial of any specific
voir dire questions, so it cannot engage in a meaningful
analysis of why any certain question was granted or denied.”
Trial Court Opinion, at 44. The court further noted that

A juror who will automatically vote
for the death penalty in every case
will fail in good faith to consider
the evidence of *639 aggravating
and mitigating circumstances as the
instructions require him to do.
Indeed, because such a juror has
already formed an opinion on the
merits, the presence or absence
of either aggravating or mitigating
circumstances is entirely irrelevant
to such a juror. Therefore, based
on the requirement of impartiality
embodied in the Due Process Clause of
the Fourteenth Amendment, a capital
defendant may challenge for cause any
prospective juror who maintains such
views.

Id. at 729, 112 S.Ct. 2222.
In accordance with the above, this Court has expounded:
To enable a capital defendant to enforce his [constitutional]
right to an impartial jury, he must be afforded an adequate
voir dire to identify unqualified jurors: “Voir dire plays
a critical function in assuring the criminal defendant that
his right to an impartial jury will be honored. Without
an adequate voir dire, the trial judge's responsibility to
remove prospective jurors who will not be able impartially
to follow the court's instructions and evaluate the evidence

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

12

Commonwealth v. Knight, 241 A.3d 620 (2020)

cannot be fulfilled.” [Morgan v. Illinois, 504 U.S.] at
729-30, 112 S.Ct. 2222.
While this Court has explained that the scope of voir
dire is within the sound discretion of the trial court, see
Commonwealth v. Bridges, 563 Pa. 1, 757 A.2d 859,
872 (2000), the United States Supreme Court has stated
that the exercise of the trial court's discretion, and the
restriction upon inquiries at the request of counsel, are
“subject to the essential demands of fairness.” Morgan,
504 U.S. at 730, 112 S.Ct. 2222 (citation omitted).
The high Court further held that, particularly in capital
cases, “certain inquires must be made to effectuate
constitutional protections,” including questions regarding
racial prejudice, and questions as to whether a juror's views
on the death penalty would disqualify him from sitting,
either because the juror's opposition to the death penalty is
so strong that it would prevent the juror from ever imposing
the same, or because the juror would always impose the
death penalty following a conviction. Id. at 730-33, 112
S.Ct. 2222.
Commonwealth v. Le, 652 Pa. 425, 208 A.3d 960, 972-73
(2019) (footnote omitted).
In his brief, Appellant does not challenge the trial court's
denial of any particular voir dire question, but, rather, asserts
that he should have been able to cite the mitigators he intended
to introduce at his sentencing trial and inquire whether the
jurors would “consider and give meaningful effect to them.”
Appellant's Brief at 25.
We first note that, at the beginning of jury selection, the
trial court went through the voir dire questionnaire with
the prospective jurors, question by question. Question 30
provided:

In the penalty trial, the decision
of whether the Defendant must
be sentenced to life or death
depends on your weighing any
aggravated circumstances proved by
the Commonwealth against any
mitigating circumstances proven by
the defense. Are you confident that you
will be able to participate with your

fellow jurors in weighing these factors
against each other?

N.T. Jury Selection, 10/29/18, at 19.
Furthermore, the record reveals that counsel was afforded
and exercised the opportunity to question the prospective
jurors regarding their ability to consider the evidence of
both aggravating and mitigating circumstances, and weigh
these factors fairly when determining whether to impose a
sentence of life in prison without parole or death. See e.g. id.
at 33-34 (“Do you think that you would be able to listen to
all *640 the evidence in this case, consider the aggravating
circumstances, any mitigating circumstances, and based on
that would you be able to render a fair verdict? ... And would
it be possible for you to render a verdict of a sentence of
life imprisonment without the possibility of parole?”); id. at
41 (“During the course of this trial on behalf of Mr. Knight
we will be presenting several mitigators that are listed by
law. Are you willing to consider those mitigating factors and
determine a verdict in his case?”); id. at 113 (“We will be
presenting mitigating evidence, the Commonwealth presents
aggravating, in favor of a life sentence. Would you be able
to consider mitigating evidence fairly?”); id. at 254 (“And
you were asked whether you can impose the death penalty.
What I would like to ask you is, could you listen to all the
evidence of both aggravating circumstances and mitigating
circumstances, and if warranted, would it be possible for
you to impose a sentence of life without the possibility of
parole.”).
To the extent Appellant argues that he should have been
permitted to ask jurors whether they would give effect
to the specific mitigating circumstances he intended to
introduce, this Court previously has rejected this argument. In
Commonwealth v. Bomar, 573 Pa. 426, 826 A.2d 831 (2003),
the appellant was sentenced to death following his conviction
of first-degree murder, rape, aggravated assault, kidnapping,
and abuse of a corpse. On appeal, the appellant claimed,
inter alia, that the trial court denied him the opportunity to
“life qualify” the jury during voir dire by restricting him
from “questioning potential jurors about specific aggravating
circumstances which might cause them to impose a death
sentence and specific mitigating circumstances which might
cause them to return a sentence of life imprisonment.”
Id. at 847. Observing that the appellant failed to identify
any instance in which he sought to question potential
jurors regarding a specific aggravating circumstance, this

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

13

Commonwealth v. Knight, 241 A.3d 620 (2020)

Court addressed the three occasions on which the appellant
claimed he was precluded from questioning potential
jurors concerning specific potential mitigating circumstances,
including the appellant's childhood, his character and record
of “good deeds,” and “circumstances about [the appellant].”
Id. at 847-48. In holding that the trial court did not err in
prohibiting the appellant from posing those questions to the
potential jury, we explained:
The purpose of voir dire is solely to ensure the empanelling
of a competent, fair, impartial, and unprejudiced jury
capable of following the instructions of the trial court.
Neither counsel for the defendant nor the Commonwealth
should be permitted to ask direct or hypothetical questions
designed to disclose what a juror's present impression or
opinion as to what his decision will likely be under certain
facts which may be developed in the trial of a case. “Voir
dire is not to be utilized as a tool for the attorneys to
ascertain the effectiveness of potential trial strategies.”
Id. at 849 (citations omitted).
We concluded in Bomar that the questions the appellant
sought to ask prospective jurors:

were intended to elicit what the
jurors' reactions might be when and
if appellant presented certain specific
types of mitigating evidence. The
questions were simply not relevant
in seeking to determine whether
the jurors would be competent, fair,
impartial and unprejudiced. Rather,
the queries at issue sought to gauge
the efficacy of potential mitigation
strategies. Moreover, in the face
of these inappropriate questions, the
trial court asked appropriate general
questions *641 which revealed that
the jurors in question would consider
all the evidence, both aggravating
and mitigating, and follow the court's
instructions.

Id.

Thus, we reject Appellant's claim that the trial court abused
its discretion in denying his request to utilize the Colorado
Method of voir dire in this case.

G. Photos
In his next issue, Appellant contends that the trial court
abused its discretion in allowing the jury to view “several
inflammatory graphic color photos of the victim's bloodied
and battered body” during its deliberations. Appellant's Brief
at 25. Appellant argues that the photographs were “irrelevant
and unfairly prejudicial,” in that he had “already pleaded
guilty to stabbing the victim in the heart” and the photos’
“evidentiary value did not outweigh the likelihood they would
inflame the minds and passions of the jurors.” Id. Appellant
also alleges that, in denying his request that the photos shown
at trial be in black and white instead of color, the trial court
failed to comply with this Court's prior opinion, wherein
we vacated his first sentence of death and remanded for a
new penalty trial. 12 Appellant asserts that the trial court's
admission of color photos at trial also is inconsistent with this
Court's holding in Commonwealth v. Ballard, 622 Pa. 177, 80
A.3d 380 (2013).
In the instant case, we note that the Commonwealth suggests
in its brief that it is “unclear from the Appellant's brief
whether he is challenging the court's pre-trial decision to
admit autopsy photos under limited circumstances or the
court's pre-jury deliberation decision to send certain photos
out with the jury.” Commonwealth's Brief at 28. Thus, it
indicates that it will address both. However, we construe
Appellant's challenge as pertaining to only those photographs
that were provided to the jury during its deliberations. See
Appellant's Brief at 25 (“Inflammatory autopsy photos should
not have been admitted and provided to the jury during
deliberations”); id. at 25 (“several inflammatory graphic color
photos of the victims’ bloodied and battered body were
provided to the jury to review during its deliberations”);
*642 id. at 26 (“The decision of the trial court to admit these
photos at trial and to allow the jury to view these photographs
during jury deliberations amounts to an abuse of judicial
discretion.”). Thus, we limit our review to those photographs
which were provided to the jury during their deliberations.
Notably, and consistent with the repeated deficiencies in his
brief, Appellant does not identify the specific photographs
he claims should not have been provided to the jury. A
review of the transcript, however, reveals that Appellant's

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

14

Commonwealth v. Knight, 241 A.3d 620 (2020)

counsel objected to four photographs being sent into the jury
deliberation room:
Your Honor, for the record, we're objecting to photos
marked ... Commonwealth's Exhibit 10A, which is a
picture of a trash can that shows the body and the blood
and jeans and part of I believe the lower extremity.
Commonwealth Exhibit 13, which I honestly don't know
what it is, but it is a just described as a pink bag covering
the body with part of the body protruding. That's 13.
Commonwealth 14 is a rather graphic picture of Jennifer
tied-up and bloody, showing her head and hands. It's
rather gruesome.
And Exhibit 15 is a photo of Jennifer on the autopsy
cart it looks like with jeans and part of her bloody torso
exposed.
We're objecting to those going out to the jury.
N.T. Trial, 11/15/18, at 1190.
It is well settled that the admissibility of evidence is a matter
within the discretion of the trial court, and will be reversed
only upon an abuse of that discretion. Le, 208 A.3d at 970.
This Court has repeatedly explained that
photographic evidence of a murder victim is not per se
inadmissible; instead, the admissibility of photographic
evidence depicting a murder victim involves a two-part
analysis. “The court must first determine if the photograph
is inflammatory and then, if it is, the court must apply
a balancing test to determine whether the photograph is
of such essential evidentiary value that its need clearly
outweighs the likelihood of inflaming the minds and
passions of the jury.”
Ballard, 80 A.3d at 392-93 (citations omitted).
Moreover, “[i]n capital cases where a jury is empanelled
only for the penalty phase of trial, photographs have essential
evidentiary value if they help inform the jury about the history
and natural development of the facts of the case, or if they
potentially rebut mitigation evidence.” Id. at 393; see also
Commonwealth v. Marshall, 537 Pa. 336, 643 A.2d 1070,
1075 (1994) (photographs depicting victims in condition they
were found as result of crimes were admissible because
they assisted jury in understanding facts surrounding victim's
death and provided “insight into the nature of the offenses”).

Further, “[t]he availability of alternate testimonial evidence
does not preclude the admission of allegedly inflammatory
evidence.” Ballard, 80 A.3d at 393 (citations omitted).
Nevertheless, this Court has found that a trial court abused its
discretion in admitting such photographs “when the situation
generally entails indifference from the trial court or the
Commonwealth to the photographs' prejudicial effect, or
where the precautions taken were not commensurate with the
nature of the scene depicted.” Id.; see also Commonwealth
v. Chacko, 480 Pa. 504, 391 A.2d 999, 1000–01 (Pa. 1978)
(measures not enough to cure prejudice where photographs
were close-ups *643 of victim's body at crime scene and
depicted large gaping wounds and bloodied clothing).
Additionally, Rule 646 of the Pennsylvania Rules of Criminal
Procedure provides that, “[u]pon retiring, the jury may take
with it such exhibits as the trial judge deems proper.”
Pa.R.Crim.P. 646. As with the admission of evidence, the
determination of which items may be viewed by the jury is
within the discretion of the trial court.
In rejecting Appellant's objection to allowing the jury to view
the photos during its deliberations, the trial court stated:

In the previous three trials [of
Appellant's co-defendants] all the
autopsy photos went out and I was
not reversed on that, but out of an
abundance of caution I did not allow
the autopsy photos to go out with
the jury in this case, nor did I allow
them to be shown more than one
time and so the autopsy photos were
only shown to Dr. Wecht, however
these photos I think there's no problem
with them going out. I mean, the
fact they're prejudicial. This was an
allegation of a torture murder of a
person. The Defendant pled guilty to
First Degree Murder and I think that
these are relevant to show, as the
Commonwealth argued, the extent that
the Defendant and his Co-Defendants
went to hide the crime.

N.T. Trial, 11/15/18, at 1192-93.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

15

Commonwealth v. Knight, 241 A.3d 620 (2020)

Appellant's argument to this Court with regard to the trial
court's admission of photos of the Victim is comprised of
a mere three paragraphs, and includes the following bald
assertion:

In a case such as this, where a
young mentally challenged girl was
tortured and murdered, these bloody,
graphic photos of the victim's dead
body jammed into a trash can were
inflammatory and highly prejudicial.
Their relevance to torture and the
principle that murder cases need not be
sanitized was significantly outweighed
by their prejudicial impact upon this
capital jury, resulting in verdict based
on passion and prejudice.

Appellant's Brief at 26.
The Commonwealth points out that the challenged photos
were taken prior to the victim's autopsy, and did not show
visible wounds or a substantial amount of blood. The
Commonwealth further responds that

[t]he photos showed the state in which
the victim was found: bound by
Christmas decorations and stuffed into
a garbage can, facts that were crucial
to the narrative of the case. The court
determined that although the photos
were prejudicial, they were relevant
to show the extent that the Appellant
[and] his co-defendants went to hide
the crime.

Commonwealth's Brief at 34.
We have reviewed each of the four photographs that were
provided to the jury during its deliberations. Exhibit 10A is
a photo of the inside of the trash can as it appeared when
the Victim's body was found therein. It shows a black trash
bag covering the legs of the Victim, who had been placed
upside-down inside the trash can, with the top portion of
her jeans and a slight portion of her lower back visible. The

photograph does not show the Victim's face, nor any blood or
open wounds.
Exhibit 13 is photograph of the Victim once she was removed
from the trash can, lying on a sheet on an autopsy table. The
Victim is lying in a fetal position on her side, and there is a
clear plastic bag on the upper portion of her body; her face and
head are not visible. A portion of the Victim's lower back and
upper buttocks is visible, and there appear to be bruises and/
or blood on that portion of her body, but no wounds. Her legs
are covered by a black trash bag. There appears to be *644
smeared blood inside the clear plastic bag, which makes the
bag appear pink in color, as suggested by defense counsel's
description of the photo.
Exhibit 14 consists of a photograph of the Victim on her side,
in a fetal position, facing forward, on an autopsy table. The
photo shows the Victim's shorn head, but her bound hands are
in front of her face and, thus, her face is not visible, although
her right ear can be seen. The Victim is wearing a shirt and
jeans, and a portion of her right lower abdominal area and hips
can be seen. While the Victim's body appears bloody and the
shirt appears blood-soaked, there are no visible wounds. The
photograph shows the Christmas lights that were tied around
the Victim's hands, and dangled across her body.
Finally, Exhibit 15 is a photo of the lower half of the Victim's
body, clothed in jeans, with her sock-covered feet in a trash
bag, on an autopsy table. A small area of her waist just above
her jeans is visible, but there are no open wounds. The photo
shows the Christmas garland that was wrapped around the
Victim's ankles.
Our review of the above photos leads us to the conclusion
that the photos had essential evidentiary value which was not
outweighed by their inflammatory nature. As the trial court
observed, the Victim was subjected to a lengthy period of
torture before she was killed, and the photos demonstrate
the restraint and humiliation that was inflicted upon her in
this regard. Additionally, the photos illustrate the steps that
Appellant and his co-defendants took to hide the Victim's
body. Thus, we find that the photographs assisted the jury in
understanding the facts of the Victim's death and the nature
of the offenses. See Marshall, 643 A.2d at 1075. Further,
while clearly disturbing, we would not characterize the photos
as “gruesome,” as they were not close-ups of the Victim's
wounds or injuries. Cf. Chacko, 391 A.2d at 1000–01.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

16

Commonwealth v. Knight, 241 A.3d 620 (2020)

Moreover, a review of the trial transcript and the trial court's
opinion demonstrates that the trial court carefully exercised
its discretion both in determining which photos to admit
at trial and which to send out with the jury during its
deliberations. In fact, the trial court instructed the jury, prior to
its deliberations, that the more graphic and grisly photographs
that were admitted during the trial, but which were not sent
out with the jury,
were admitted into evidence for the purpose of showing
the nature and extent of the wounds received by Jennifer
Daugherty, and to help you understand the testimony of the
witness who referred to these injuries and wounds.

it as an aggravating circumstance.
Second, if you find at least one
aggravating circumstance and at
least one mitigating circumstance,
you may then consider the victim
and the family impact evidence
when deciding whether aggravating
circumstances outweigh the mitigating
circumstances.

N.T. Trial, 11/15/18, at 1177.

Accordingly, for the reasons set forth above, we hold that
the trial court did not abuse its discretion in permitting the
jury *645 to have the four challenged photos during its
deliberations.

Observing that Appellant did not object to the jury instruction
at the time of trial, or raise it in his post-sentence motion, the
Commonwealth contends that the issue is waived. We agree.
As noted above, no portion of a jury charge or omissions
therefrom may be assigned as error, unless specific objections
are made before the jury retires to deliberation. Pa.R.Crim.P.
647(c); Montalvo, 956 A.2d at 935. Moreover, issues not
raised in the lower court are waived and cannot be raised for
the first time on appeal. Pa.R.A.P. 302(a). Appellant failed to
object to the trial court's charge when it was given; failed to
raise his claim in a post-sentence motion; and raises it for the
first time on appeal. Accordingly, his claim is waived.

H. Jury Instruction on Victim Impact Evidence

I. Statutory Review of Death Sentence

Appellant next claims that Pennsylvania Suggested Standard

In his final issue, Appellant, in a one-paragraph argument,
contends that the jury's verdict was the result of passion,
prejudice and arbitrary factors, and was “against the great
weight of evidence presented.” Appellant's Brief at 27.
Specifically, Appellant asserts that the evidence of his
intellectual disability, and the jury's finding of three different
mitigating factors, suggest that the verdict of death was
against the weight of the evidence. Appellant *646 further
posits that the admission of graphic photos of the victim,
combined with the family's victim impact statements, resulted
in a verdict “based on passion and sympathy for the victim
and her family.” Id.

They are not pleasant photographs to look at. You should
not let them stir up your emotions to the prejudice of the
Defendant. Your verdict must be based on an impartial
and fair consideration of all the evidence and not on
passion or prejudice against the Defendant.
N.T. Trial, 11/15/18, at 1159-60. 13

Criminal Jury Instruction 15.2502F.7, 14 which pertains to the
jury's consideration of victim impact evidence when weighing
aggravating and mitigating circumstances and which the
trial court provided to the jury, violates “the Pennsylvania
Judiciary Code and Pa Supreme Court rulings interpreting
that Code that a verdict of death cannot be based on
passion, prejudice or any arbitrary factor, 42 Pa.C.S.A.
9711.” Appellant's Brief at 26-27. Although Appellant fails
to identify where in the record the challenged instruction may
be found, as he is required to do under Pa.R.A.P. 2019(c), he
appears to refer to the following instruction by trial court:

You have heard evidence about the
victim and about the impact of the
victim's murder upon her family.
This evidence is subject to two
special rules. First, you cannot regard

Even if Appellant had not raised this issue in his brief,
this Court is required to conduct an independent review to
determine (1) whether the sentence of death was the product
of passion, prejudice, or any other arbitrary factor; or (2)
if the evidence fails to support the finding of at least one
aggravating circumstance listed in 42 Pa.C.S.A. § 9711(d).
See 42 Pa.C.S.A. § 9711(h)(3) (requiring affirmance of the

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

17

Commonwealth v. Knight, 241 A.3d 620 (2020)

sentence of death unless this Court concludes either of these
two factors are present); Ballard, 80 A.3d at 409-10 (same).
The Commonwealth first responds that an appellant may not
use a weight of the evidence claim to challenge a death
sentence. Commonwealth's Brief at 39. The Commonwealth
is correct in this regard. In Commonwealth v. Reyes, we
explained that the power to vacate a death sentence is
circumscribed by Section 9711(h)(3) of the Sentencing
Code, and “[t]his restriction on our authority has caused
this Court to reiterate many times that it is exclusively
the function of the jury in the first instance to decide
whether aggravating and mitigating circumstances exist and
then whether the aggravating circumstances outweigh any
mitigating circumstances.” 600 Pa. 45, 963 A.2d 436, 441
(2009). As such, this Court “may not reverse a death penalty
on weight of the evidence grounds.” Id. at 442.
With respect to Appellant's claim that the jury's verdict was
the result of passion, prejudice, or other arbitrary factors,
we likewise reject this argument. Following our thorough
review of the record in this case, we conclude that Appellant's
sentence of death was not the product of passion, prejudice,
or any other arbitrary factor, but, rather, was fully supported
by the evidence that Appellant and his co-defendants held
the intellectually-disabled victim against her will for several
days, during which time they continuously subjected her to
myriad forms of physical and emotional torture, eventually
stabbing her in the chest, slicing her throat, strangling her,
and stuffing her body into a trash can which they left outside
under a truck.
Additionally, the Commonwealth proved at least two separate
statutory aggravators beyond a reasonable doubt: (1) the

offense was committed during the perpetration of a felony, 42
Pa.C.S. § 9711(d)(6), including kidnapping and aggravated
assault; and (2) the killing was committed by means of
torture, id. § 9711(d)(8). Although the jury found three
mitigating circumstances − Appellant's lack of a significant
history of prior criminal convictions, § 9711(e)(1); the fact
that Appellant was under the influence of extreme mental
or emotional disturbance, § 9711(e)(2); and that Appellant
acted under extreme duress or under the substantial dominion
of another person, § 9711(e)(5) − the jury determined that
the aggravating circumstances outweighed the mitigating
circumstances.
As the jury found that the aggravating circumstances
outweighed the mitigating circumstances, Appellant's
sentence complies with the statutory mandate for the
imposition of a sentence of death. See id. § 9711(c)(1)(iv).
Accordingly, there are no grounds upon which to vacate
Appellant's death sentence pursuant to Section 9711(h)(3).
For all of the above reasons, we affirm Appellant's sentence
of death.

Chief Justice Saylor and Justices Baer, Donohue, Dougherty
and Mundy join the opinion.
Justice Wecht did not participate in the consideration or
decision of this case.
All Citations
241 A.3d 620

Footnotes
1
2
3
4
5
6
7

18 Pa.C.S. § 2502(a); 2502(b); 903(a)(1); 2901(a)(3); and 903(a)(1), respectively.
Appellant was 20 years old at the time of the crime.
In his brief, Appellant incorrectly states that this Court granted him a new penalty trial on March 10, 2017.
See Appellant's Brief at 4.
Atkins v. Virginia, 536 U.S. 304, 321, 122 S.Ct. 2242, 153 L.Ed.2d 335 (2002).
The petitions of Cox and Marinelli were consolidated for disposition.
Pa. SSJI (Crim), § 15.2502F.2.
As the Court explained in Hall,
The mean IQ test score is 100. The concept of standard deviation describes how scores are dispersed in a
population. Standard deviation is distinct from standard error of measurement, a concept which describes
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

18

Commonwealth v. Knight, 241 A.3d 620 (2020)

8

9
10
11

12

13

14

the reliability of a test. ... The standard deviation on an IQ test is approximately 15 points, and so two
standard deviations is approximately 30 points. Thus a test taker who performs “two or more standard
deviations from the mean” will score approximately 30 points below the mean on an IQ test, i.e., a score
of approximately 70 points.
572 U.S. at 711, 134 S.Ct. 1986.
In addressing this claim, the trial court noted that, while the jury, during its deliberations, asked, “Could the jury
read from the testimony of Dr. Nezu?,” the jury did not, contrary to Appellant's characterization of the request,
ask “for the report, per se, but [rather] the testimony that was elicited during trial.” Trial Court Opinion at 35.
Allen v. United States, 164 U.S. 492, 17 S.Ct. 154, 41 L.Ed. 528 (1896).
Commonwealth v. Spencer, 442 Pa. 328, 275 A.2d 299 (1971).
The term “life-qualify” refers to the process of identifying prospective jurors who have a fixed opinion that a
sentence of death should always be imposed for a conviction of first-degree murder. Commonwealth v. Smith,
635 Pa. 38, 131 A.3d 467, 477 (2015); Commonwealth v. Le, 652 Pa. 425, 208 A.3d 960, 973 n.15 (2019).
Specifically, Appellant points to the following language from the majority opinion in Knight, which was
authored by Justice Dougherty and joined in full by Chief Justice Saylor and Justice Donohue:
On remand we suggest the parties and the court take stricter measures to mitigate the potential for a
prejudicial effect upon the jury. The testimonial description of the acts committed by the conspirators,
and the description of her injuries by Dr. Wecht and the detective vividly display the victim's suffering.
As our cases recognize, this is not to say the trial has to be sanitized to the point where no photographs
can or should be admitted. But, care can be taken not to allow the presentation to go to unnecessary
extremes. This is not a case where the defendant seriously contested the existence of the torture
aggravator; indeed, appellant's counsel never argued against torture in his closing. In addition, the trial
court recognized certain measures should be taken to limit the jury's exposure to the photographs but,
for some reason, they were not followed, as the jury saw the photographs twice during the trial, and also
had them in deliberations.
156 A.3d at 254-55.
Justice Baer authored a concurring opinion, distancing himself, inter alia, from the above-quoted portion of
the opinion on the basis that, because the issue regarding the autopsy photos was moot, an opinion on the
matter was “inappropriate.” Id. at 256 (Baer, J., concurring). I also distanced myself from the above-quoted
language for the reasons articulated by Justice Baer. Id. at 257 (Todd, J., concurring). Furthermore, Justice
Mundy filed a dissenting opinion, and Justice Wecht did not participate in the decision. As a result, the abovequoted language was endorsed by only a plurality of the participating Justices.
Hence, we reject Appellant's claim that the trial court failed to comply with this Court's decision in Knight. First,
the language relied on by Appellant was agreed to by a plurality of the Court, and, thus, was nonbinding. See
Commonwealth v. Bomar, 573 Pa. 426, 826 A.2d 831, 843 n.13 (2003) (“While the ultimate order of a plurality
opinion, i.e. an affirmance or reversal, is binding on the parties in that particular case, legal conclusions and/
or reasoning employed by a plurality certainly do not constitute binding authority.”). At any rate, it is evident
that the trial court took pains to limit the jury's exposure to the most disturbing photographs in order to limit
the potential for prejudice.
The instruction provides:
You have heard evidence about the victim and about the impact of the victim's murder upon [his] [her]
family. I'm talking about the statements made by [name of family member]. This evidence is subject to two
special rules. First, you cannot regard it as an aggravating circumstance. Second, if you find at least one
aggravating circumstance and at least one mitigating circumstance, you may then consider the victim and
family impact evidence when deciding whether aggravating outweigh mitigating circumstances. Each of
you may give the victim and family impact evidence whatever weight [, favorable or unfavorable to the
defendant,] that you think it deserves. Your consideration of this evidence, however, must be limited to a
rational inquiry into the culpability of the defendant, not an emotional response to the evidence presented.
Pa. SSJI (Crim), § 15.2502F.7 (square bracketing original).

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

19

Commonwealth v. Knight, 241 A.3d 620 (2020)

End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

20

matter

for

approximately three hours,

it

was entirely appropriate for the Court to

instruct to jurors to continue deliberations. Although Defendant asserts that the Court
should have inquired as to whether the jury was "hopelessly deadlocked," there is no

affirmative duty on trial courts to do so, and based on the short length of time that had
elapsed, the Court exercised its discretion in its instructions to the jury.

F. WHETHER JURY INSTRUCTION T5.2502ß.2 CONCERNING A
DEFENDANT'S INTELLECTUAL DISABILITY SHOULD HAVE BEEN
READ TO THE JURY?
Defendant next avers that the question

of whether Defendant was

intellectually

disabled and ineligible for the death penalty should have been sent to the jury.
The United States Supreme Court in the watershed Atkíns decision announced that

the execution of mentally retarded individuals violated the prohibition against cruel and
unusual punishme nt. Atkins,

v. Virginia,536 U.S.

although mentally retarded individuals are capable

304 (2002). The Court found that

of differentiating

between right and

wrong, due to their sub-average intelligence and limited adaptive skills, they often fail to
learn from their experiences or learn to control their impulses. .Id.

The Pennsylvania Supreme Court in Comm. v. Mìller,888 A.zd 624 (Pa.2Ct05),
held that a defendant may establish "mental retardation" by showing by a preponderance

of the evidence that he has limited

intellectual functioning, significant adaptive

limitations, and the onset of his sub-average intellectual functioning began before he
turned 18 years o\d. See also Comm. v. Il/illiøm,t 61 A.3d 979 (Pa.2013).In terms of IQ
testing, the Court noted:
39

APPENDIX B

Limited or subaverage intellectual capability is best
represented by IQ scores, which are approximately two
standard deviations (or 30 points) below the mean (100). The
concept should also take into consideration the standard error
measurement (hereinafter "SEM") for the specific
assessment instruments used. The SEM has been estimated to
be three to five points for well-standatdized measures of
example, a
general intellectual functioning. Thus,
subaverage intellectual capability is commonly ascribed to
those who test below 65-75 on the Weschler scales.

of

for

Id. at630.
The Pennsylvania Supreme Court in Comm. v. Sønchez, 36 A.3d 24 (Pa.20ll),
held that Pennsylvania properly submits colorable Atkins issues to the jury for a penalty
phase decision.

It noted, however, that"anAtkins claim is not properly for the fact-finder

unless there is competent evidence to support the claim, under the standard announced in

Miller." Id. at 96, n. 19. Thus, there must be some evidence to

establish the three

following factors established by Mílter and its progeny to support sending the question of
mental retardation to

a

jury: (1) that the defendant has significant sub-average intellectual

functioning. Generally, this

is best illustrated by IQ scores. \Mhile there is no

mathematical cutoff IQ score for determining mental retardation, an IQ score at or below
the range

of

65-75 may be considered to reflect sub-average intellectual functioning; (2)

the defendant must also show significant limitations in his adaptive behavior; (3) the
defendant must also prove that the onset of these two conditions occurred before he was
18 years old.

40

In this case, while there was evidence introduced that Defendant had limitations in

his adaptive functioning that arose prior to the age of 18, only one IQ score of 75 was
introduced into evidence, which was not relied upon by either party as a reliable result.

Dr. Christine Nezu, a clinical psychologist, testified that Defendant's

adaptive

functioning was unequivocally below average to the extent of two standard deviations.

(TT 963). As to Defendant's IQ,

she

testified:

In terms of the [first leg of the diagnosis of

intellectual
disabilityl, does Melvin Knight have impaired intellectual
functioning two standard deviations below average, which
would answer that criteria. In other words, an IQ somewhere
between 65 and 75. I didn't conduct the IQ testing myself, but
from all the testing I reviewed and my knowledge of that I
would have to say he did not meet that criteria.
(TT e64-65).

Dr. Nezu testified that Defendant had

signif,rcant issues

with his

adaptive

functioning, as it "clearly and unequivocally . . . was in the significantly impaired range."

(TT 965-66). Dr. Nezu also mentioned an IQ finding of 75 in the record, which she stated
was from a BETA

III

examination, and was performed while Defendant was incarcerated

as part of his classification

in 2012. (TT 969). As to whether Defendant could

meet the IQ requirements under Atkins, Dr. Nezu conceded the fbllowing:

D.A. Peck: So if it's the defendant's burden, as you
d Virgíniø v. Atkins to prove that he is intellectually
disabled, he has not proven that based on your testimony,
isn't that correct?

understan

Dr. Nezu: That's correct.

(rT

e76).

4l

properly

Dr. Joette James, a clinical neuropsychologist, performed an IQ test on Defendant,
and found that his overall score was

77

. (TT 781). Dr. James also discussed Defendant's

prior IQ scores:
His fuIl scale IQs have been variable over time. He had avery
low IQ . . . when he was initialty tested, the same number I
got, 77 fulI scale when he was 7 yearc 11 months and tested
for ADHD at Children's Hospital in Pittsburgh. Then he
subsequently was tested at 8, he's been tested at 12, he's been
tested at 21. He has scores in the average range. He has a
score when he was 2l thar was in the low average range . .
.Without seeing it mentioned and some of the documents
saying it, it is sort of surprising that his IQs have been as high
as in the average range . . .

(Tr

78s-86).

When Dr. Bruce Wright, a psychiatrist called by the Commonwealth, was asked
about the BETA

III

test, he stated that the score was the result of a brief intelligence

screening test that is much less specific than the others performed on Defendant. (TT
1016).

Thus, because Defendant was unable
standard deviations of a mean IQ

of

to

establish that his IQ was below two

100, taking into account the standard of error, the

Court properly did not send the question of whether Defendant was intellectually disabled

to the jury. \Mhile Defendant
provided to the jury,

asserts that

"if

the Atkins instruction would have been

it is likely that the defendant would

have been determined to be

intellectually disabted and ineligible for the death penalty," such an instruction would
have been inappropriate, since Defendant's own experts conceded that his IQ did not

42

meet the definition of "intellectually disabled" as established by Atkins. (Defendant's
post-sentence motions, Pg. 4).

G. \ryHETHER DEFENDA¡IT'S DEATH SENTENCE WAS TIIE RESULT OF
PASSION, PREJUDICE, OR ANY ARBITRARY F'ACTORS AND WAS
AGAINST THE WEIGHT OF THE EVIDENCE?
Defendant also avers that the sentence
prejudice as a result of the admission

of death was

based

on passion

of "colored graphic and inflammatory

and

autopsy

photos."

As discus

sed,

supra, the sentence was based on sufficient evidence that appellant

intentionally killed Jennifer Daugherfy with malice, and there was sufficient evidence to
support the finding of the aggravating circumstances. Moreover, although the jury was
shown several photos taken during the autopsy, the Court properly took precautions to

limit the jury's exposure to graphic images.
Jennifer Daugherty was murdered by Defendant and his cohorts after days of
horrendous humiliation and degradation. As the defendants were left unsatisfied after

cutting her hair until she was nearly bald, forcing her to drink feces, urine, and bleach,
beating her until nearly her entire body was bruised, and forcing her to pen her own

suicide note, Jennifer died gasping for air and bleeding internally from multiple stab

wounds to her heart and lung. The trial in this matter resulted

in comprehensive

testimony reflecting Defendant's active participation in Jennifer's torture and murder,
and the Commonwealth presented evidence beyond a reasonable doubt to support each

of

the aggravating circumstances that the jury determined outweighed the mitigating factors
43

1
2

J
4

5
6

consistent with Whítaker and Vüotaver, W-o-l-a-v-e-r by
Justice Baer, obvious rebut.tal test.imony would be the
underlying convictions which could serve as a basis for
rebuttal, the lack of significant history of criminal
convictions. we understand Justice DougherLy's ruling
t,hat the court is going to instruct uS to a mitigator,

B

but I,m ind'icat'ing that wou]d have been otherwise
appropriate rebuttal evidence but hle introduced it

9

undertying convictions'

1

as

13

OkaY. There was an
opiníon bY Justice Bear that said these things that he
pled guiltY could be used to rebut the fact that he is '
MR. DAVüSON: You're referring to

I4

the opinion. I got it'

10
11

I2

IHE COURT:

THE COURT:

15

Things that

t'heY

t6

pled guiltY to here so your motion is denied' Itrs

I1

t.he record.

1B

T9

20

I don't know if this would be a
Atkins
good time to bring uP the fact that You wanted an
instruction to be given?
MR. DAWSON: Yes, Your Honor'

2t
22
ZJ

24
25

We

could do it

no\^/

or at the

end '

: Do it now quicklY '
MR. DAWSON: On behalf of the
if
Defendant, \^fe \^¡ere asking that an Atkins instruction,
THE

COURT

APPENDIX C
I

on

t_086

1
2

3
4

5
6

1
B

9

10
11

I2

I frây, Your Honor, standard' 1"5'2502(f)2 be given on the
basi-s of commonweafth vs. sanchez, but primarily on the
v'
supreme court. decision in Hall v. Fl-orida and Moore
Texas. ThOSe are t.wo recent supreme court cases that
expand on the supreme courtts interpretation of what
const.itutes intellectuaf disability, and formerly known
as mental healt.h/mental retard.ation. Those opi-nions
st.ate that the mathematical cut,off of 65 to 15 should
notprecludeaDefendantfromreceivingasimi]-ar
instruct.ion. with that I believe the record is
prot'ected.becauseHaflV.F]-oridawouldstillbe
interpret,ed across the countrY'
THE COURT:

13
L4

Did You want to

respond?

MR. CIARAMITARO: Your Honor'

15

19

Atkins instructions shoul-d noL be sent to the jury where
the Defendant has been diagnosed pursuant to the DSM-V
with an intellectual- disability and that should not be
sent to the jury. That is consistent with Hall v'

20

Florida.

T6
1,7

1B

24

I understand ít'
and the court ü/as correct when you stated, that there
18 '
\^ras no evj-dence of an IQ of 65 to 15 before
THE COURT: Correct' If I

25

recall the testimony correct,ly, there

2T

22
23

MR- DAWSON: As

hlas

only one out

1087
I

in his life that \^Iere 75 and
that. \^ras done at the age of 22 when t,he Defendant was
incarcerated at scI. Therefore, it doesntt. meet the
thirdprongthattheDefendantmustproveboth
conditj-ons, that. is, the first and second condítion
occurred before he bras 18 years old so there is no
evi-dence what.soever and it. would make no sense for me to
give that, instruction to the jury'
Your objection is noted and it

of any that

1
2

3
4

5
6
7
B

9

is denied.

10

a::':.:.:j,

h/ere ever done

11

[üe're readY for closings?

L2

MR. PECK: Yes.

13

MR. DAWSON: Yes.

I4

END OF SIDEBAR DISCUSS]ON

I6

Ladies and
gentlemen, no\^I that all of the evidence has been

1,7

complet.ed,

THE COURT:

15

it becomes time for cJ-osing arguments' You
donott'akenotesduringt'heclosingsorduringmyjury
instructionst'oyousothat'youCanfocusfully.
I would remind everyone to make

1B

I9
20

Sureyourcellphonesareshutoffandeveryoneto
pleasetryt,oremainVeryquietsot'hatthejuryisable
toheareverywordoftheclosings,andaft'erthe
closingswewilltakeabriefbreakbeforemy
instruct,íons because they are rather extensive'

2T

22
23
24

25

1088

.

|

\:.::::r'.r;i::¿::a

r,:.:r.:

:-

),:::'

:,

-)-1,':

::' 1;1111."';.

